1a
APPENDIX A
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
18-35287
[Decided May 29, 2019]
CHIXAPKAID DONALD MICHAEL
PAVEL,
Plaintiff-Appellant,
v.
UNIVERSITY OF OREGON; DOUG
BLANDY; PENELOPE DAUGHERTY;
RANDY KAMPHAUS,
Defendants-Appellees.

)
)
)
)
)
)
)
)
)
)
)
)
)

NOT FOR PUBLICATION
MEMORANDUM[*]
Appeal from the United States District Court
for the District of Oregon
Ann L. Aiken, District Judge, Presiding, D.C. No.
6:16-cv-00819-AA

2a
Argued and Submitted May 14, 2019
Portland, Oregon
Filed May 29, 2019
Before: N.R. SMITH, WATFORD, and R. NELSON,
Circuit Judges
Chixapkaid Pavel appeals from the district court's
grant of summary judgment to the individual named
defendants on his 42 U.S.C. § 1983 claims based on
qualified immunity, and the district court's grant of
summary judgment to the University of Oregon and all
individual defendants on his Title VII claims and his
First Amendment retaliation claim. The facts are
well-known to the parties; we need not repeat them
here. We review the district court's grant of summary
judgment de novo. Nat'l Parks & Conservation Ass'n v.
Babbitt, 241 F.3d 722, 730 (9th Cir. 2001). We affirm.
First, the district court properly granted summary
judgment to the individual defendants, finding Pavel's
§ 1983 claims barred by qualified immunity. A state
official is entitled to qualified immunity unless a
plaintiff pleads facts showing "(1) that the official
violated a statutory or constitutional right, and (2) that
the right was 'clearly established' at the time of the
challenged conduct." Ashcroft v. al-Kidd, 563 U.S. 731,
735 (2011) (citation omitted). Here, Pavel's procedural
and substantive due process claims fail on the second
prong.
"[T]he law regarding procedural due process claims
can rarely be considered clearly established at least in

3a
the absence of closely corresponding factual and legal
precedent." Brewster v. Bd. of Educ. of Lynwood
Unified Sch. Dist., 149 F.3d 971, 983 (9th Cir. 1998)
(internal quotation marks omitted). However, "[t]he
base requirement of the Due Process Clause is that a
person deprived of property be given an opportunity to
be heard at a meaningful time and in a meaningful
manner." Id. at 984 (internal quotation marks
omitted). "The tenured public employee is entitled to
oral or written notice of the charges against him, an
explanation of the employer's evidence, and an
opportunity to present his side of the story." Cleveland
Bd. of Educ. v. Loudermill, 470 U.S. 532, 546 (1985). A
"public employee dismissable only for cause [is]
entitled to a very limited hearing prior to his
termination, to be followed by a more comprehensive
post-termination hearing." Gilbert v. Homar, 520 U.S.
924, 929 (1997).
Pavel has not presented any closely corresponding
factual and legal precedent to the circumstances where
a formal administrative and police complaint had been
made by a student about a tenured professor who had
access to a robust post-termination process. Those due
process requirements which are clearly established
were satisfied here: Pavel received oral
communications about the charges made against him,
as well as a written summary of the findings from the
University's investigation, and was given opportunities
to respond. These facts balanced with the robust
post-termination process available to him, satisfy the
clearly established requirements of due process. The
additional and nuanced due process rights which Pavel
desires are not clearly established in the law.

4a
Consequently, the
qualified immunity.

individual

defendants

merit

Even if Pavel could demonstrate that the individual
defendants' actions violated his substantive due
process rights, defendants are still entitled to qualified
immunity because Pavel failed to demonstrate the law
on "stigma" and "plus" was clearly established. A
"stigma" and "plus" claim is one in which "the state
action not only caused the stigma of a damaged
reputation, but also . . . deprived the plaintiff of a
protected liberty or property interest." WMX Techs.,
Inc. v. Miller, 197 F.3d 367, 376 (9th Cir. 1999).
Whether the same actor must publicize the
stigmatizing information and deprive the plaintiff of
his protected property interest has not been clearly
established in the law. As no clearly established law
was violated here, qualified immunity applies.
Pavel argues his due process rights were eroded by
the application of Armstrong v. Meyers, 964 F.2d 948,
950 (9th Cir. 1992). In Armstrong, this court held that
the availability of an arbitration process under a
collective bargaining agreement satisfies due process
even where the union eventually declines to pursue
arbitration, "provided of course, those procedures
satisfy due process." Id. at 950-51. Armstrong controls
here. As the district court correctly noted, Pavel's
grievance with the lack of post-termination process lies
with his union and cannot be brought against
defendants.
Second, on a motion for summary judgment, we
evaluate Pavel's Title VII racial and gender

5a
discrimination claims using the three-part
burden-shifting framework set forth in McDonnell
Douglas Corp. v. Green, 411 U.S. 792 (1973). Under
this framework, a plaintiff may establish a prima facie
case of discrimination by demonstrating that: (1) he is
a member of a protected class; (2) he was qualified for
his position and performing satisfactorily; (3) he
experienced an adverse employment action, and (4)
similarly situated individuals outside his protected
class were treated more favorably, or other
circumstances surrounding the adverse employment
action give rise to an inference of discrimination. Hawn
v Exec. Jet Mgmt. Inc., 615 F.3d 1151, 1156 (9th Cir.
2010). If a plaintiff establishes a prima facie showing
of discrimination, "the burden of production, but not
persuasion, then shifts to the [defendant] to articulate
some legitimate, non-discriminatory reason for the
challenged action." Id. at 1155 (internal quotation
marks and punctuation omitted). "If defendant meets
this burden, plaintiff[] must then raise a triable issue
of material fact as to whether the defendant's proffered
reasons for their termination[] are mere pretext for
unlawful discrimination." Id.
Pavel failed to establish a prima facie case of either
racial or gender discrimination because he did not
allege facts demonstrating he was treated differently
from similarly situated employees or that other
circumstances surrounding his termination could give
rise to an inference of discrimination. Id. at 1156.
However, even if he had established a prima facie case,
the defendants articulated a legitimate,
non-discriminatory reason for Pavel's termination: he
was terminated for violating the University's sexual

6a
harassment policy. Pavel failed to offer any evidence
that could raise a triable issue of material fact that the
University's articulated reason for his termination was
pretextual. Summary judgment on Pavel's
discrimination claims was therefore appropriate.
Finally, Pavel contends that the University
terminated his employment in retaliation for First
Amendment protected statements he made about the
firing of a Native American professor two years prior to
his termination. To establish a prima facie case of
retaliation, a plaintiff must demonstrate (1) he spoke
on a matter of public concern; (2) he spoke as a private
citizen; and (3) the "protected speech was a substantial
or motivating factor" in his termination. Eng v. Cooley,
552 F.3d 1062, 1070 (9th Cir. 2009). If the plaintiff can
make a prima facie showing of retaliation, the
defendants are nonetheless entitled to summary
judgment if they demonstrate they "would have
reached the same adverse employment decision even in
the absence of the employee's protected conduct." Id. at
1072 (internal citations and punctuation omitted).
Pavel has not shown that his protected statements
were "a substantial or motivating factor" in his
termination. Id. at 1070. His only evidence of
retaliation is speculation that one defendant (who was
not a decisionmaker in the termination process) had
animosity against Pavel because of statements Pavel
had made two years earlier. Ultimately, Pavel has
failed to offer evidence demonstrating that any
defendant responsible for the termination decision was
motivated by his protected speech. However, even if we
could infer causation from the evidence presented,

7a
defendants would be entitled to summary judgment
because they demonstrated they would have
terminated Pavel even in the absence of his protected
statements. Thus, summary judgment was
appropriate.
AFFIRMED.
[*] This disposition is not appropriate for publication
and is not precedent except as provided by Ninth
Circuit Rule 36-3.

8a

APPENDIX B
UNITED STATES DISTRICT COURT
DISTRICT OF OREGON
No. 6:16-cv-00819-AA
[Filed April 3, 2017]
CHIXAPKAID DONALD MICHAEL
PAVEL,
Plaintiff,
v.
UNIVERSITY OF OREGON; DOUG
BLANDY; PENELOPE DAUGHTERY;
ANNIE BENTZ; RANDY KAMPHAUS;
JULIET A. BAXTER; JANNE
UNDERRINER; JASON YOUNKER; and
BRIAN KLOPOTEK,
Defendants.
April 3, 2017
OPINION AND ORDER

)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)

9a
AIKEN, Judge:
INTRODUCTION
Plaintiff CHIXapkaid Pavel asserts various claims
related to the termination of his employment against
defendants University of Oregon and various
individuals. Plaintiff alleges defendants violated his
rights under federal employment discrimination
statutes, the Due Process Clause, and the First
Amendment. Individual defendants-comprised of the
eight public employees but not the University of
Oregon-only move for summary judgment on plaintiff's
procedural and substantive due process claims. For the
reasons set out below, the Court grants defendants'
motion for summary judgment (doc. 35).
BACKGROUND
Plaintiff was a tenured professor at the University
of Oregon's College of Education from September 16,
2010, until the University of Oregon terminated his
employment contract on January 21, 2015. Pl.'s Am.
Compl. ¶ 4 (doc. 28). Plaintiff's termination followed a
series of complaints that plaintiff made unwelcomed
and nonconsensual contact and comments of a sexual
nature to various students. See Blandy Dep. 28:9-21
(doc. 54-1).
Of particular note is the formal grievance a student
filed with the University of Oregon's Office of
Affirmative Action and Equal Opportunity (OAAEO) on
November 17, 2017. Daugherty Decl. Ex, 2 (doc. 38).
After the University of Oregon received the student's

10a
report, the university placed plaintiff on administrative
leave while it investigated the student's claim. Id.
Plaintiff learned the university had placed him on
leave a few days later on November 21, 2014. Pavel
Decl. ¶ 3 (doc. 52).
On December 18, 2014, Penny Daugherty and Anne
Bonner from OAAEO sat down with plaintiff and union
representative Debra Merskin to discuss the
investigation. Id. ¶ 4. At that meeting, Ms. Daugherty
and Ms. Bonner relayed their suspicion that plaintiff
appeared to engage in a pattern of sexual harassment
and interviewed him to collect additional information
regarding the accusations. Id. ¶ 6. After the meeting,
Ms. Daugherty assured plaintiff that he was free to
provide any additional evidence or documentation so
long as he provided it by January 6, 2015. Daugherty
Decl. ¶ 4. Plaintiff never submitted any additional
evidence.
At the conclusion of the university's investigation,
plaintiff and Ms. Merskin met with various staff
members on January 16, 2015 to discuss the
university's findings. Blandy Decl. ¶ 4 (doc. 37).
Participating staff included defendants Senior Vice
Provost for Academic Affairs Doug Blandy and Dean of
the College of Education Randy Kamphaus. Pavel Decl.
¶ 10 (doc. 52). The university found by a preponderance
of the evidence that plaintiff violated its sexual
harassment policy and interfered with students' rights
to equal access to education. Id. ¶ 5; Blandy Decl. Ex.
3 at 1. More specifically, the university found that
plaintiff "engaged in unwelcome verbal and physical
conduct of a sexual nature" that included touching a

11a
student's back, buttocks, and underwear. Blandy Decl.
Ex. 3 at 1. The university also found plaintiff made
"[i]nappropriate comments of a sexual nature" and
remarked "on the student's appearance after having
her stand in front of a mirror." Id. These findings were
presented to plaintiff in writing. Id. Plaintiff had the
opportunity to respond, but made no comments during
that meeting. Blandy Decl. ¶ 6.
At the January 16 meeting, the university also
notified plaintiff it intended to terminate their
employment relationship on January 21, 2015. The
university gave plaintiff until January 20, 2015 to
submit any written response or relevant evidence to
change the termination decision. Blandy Decl. Ex. 3 at
2; Merskin Decl. ¶ 5 (doc. 53); Pavel Decl. ¶ 10.
Plaintiff never replied with any additional evidence or
testimony. Pavel Dep. 171:6-23 (doc. 65). Instead,
plaintiff responded with a request for more
information. Pavel Decl. Ex. A at 1-2. The university
did not comply with plaintiff's request. Pavel Decl. ¶ 7.
Plaintiff avers the January 16 meeting was the first
time he learned that the university contemplated
terminating him. [FN 1] Id. ¶ 10.
On May 5, 2015, plaintiff grieved his termination
under his collective bargaining agreement. Brady Decl.
¶ 4 (doc. 39). On February 22, 2016, the university
offered plaintiff the opportunity to engage in
arbitration under the collective bargaining agreement.
Id. Had the arbitration proceeded, plaintiff would have
been able to "call witnesses, offer exhibits, and make
arguments" that the university did not fire him for just
cause. Id. Plaintiff's union withdrew from the

12a
arbitration and as such, plaintiff could not proceed
with arbitration and never received a post-termination
hearing. Id. at ¶ 4 & Ex. 5; Merskin Decl. ¶ 11.
STANDARD
Summary judgment is appropriate when the
evidence shows "there is no genuine issue as to any
material fact and . . . the moving party is entitled to
judgment as a matter of law." Celotex Corp. v. Catrett,
477 U.S. 317, 322 (1986). The party moving for
summary judgment must first identify the parts of the
record "which it believes demonstrate the absence of a
genuine issue of material fact." Fed. Trade Comm'n v.
Stefanchik, 559 F.3d 924, 927 (9th Cir. 2009)
(quotation marks omitted). Should the moving party
meet this initial burden, "the burden shifts to the
non-moving party to set forth . . . specific facts showing
that there is a genuine issue for trial." Id. at 928. On a
motion for summary judgment, a court views "the
evidence in a light most favorable to the non-moving
party[,]" Id. at 927. A claim will survive summary
judgment if there is "evidence on which the jury could
reasonably find for the plaintiff. The judge's inquiry,
therefore, unavoidably asks whether reasonable jurors
could find by a preponderance of the evidence that the
plaintiff is entitled to a verdict[.]" Anderson v. Liberty
Lobby, Inc., 477 U.S. 242, 252 (1986).
DISCUSSION
Defendants move for partial summary judgment,
arguing that a reasonable jury could not find a
procedural or a substantive due process violation based

13a
on the record before the Court. Even if there is a
genuine dispute over material fact, defendants argue
they deserve qualified immunity on plaintiff's
procedural and substantive due process claims.
I. Procedural Due Process
a. Merits
The Due Process Clause of the Fourteenth
Amendment provides that no state shall "deprive any
person of life, liberty, or property, without due process
of law." U.S. Const, amend. XIV, § 1. "Procedural due
process rules are meant to protect persons not from the
deprivation, but from the mistaken or unjustified
deprivation of life, liberty, or property." Carey v.
Piphus, 435 U.S. 247, 259 (1978). "A procedural due
process claim has two distinct elements: (1) a
deprivation of a constitutionally protected liberty or
property interest, and (2) a denial of adequate
procedural protections." Brewster v. Bd. of Educ. of
Lynwood Unified Sch. Dist., 149 F.3d 971, 982 (9th Cir.
1998).
The parties do not dispute that plaintiff has a
protected property interest in his continued
employment because he was a tenured professor
pursuant to a collective bargaining agreement that
provides employees will only be fired for just cause. See
Blantz v. Cal. Dep't of Corr. & Rehab., 727 F.3d 917,
921 (9th Cir. 2013) ("[G]overnment employees can have
a protected property interest in their continued
employment if they have a legitimate claim to tenure
or if the terms of the employment make it clear that

14a
the employee can be fired only for cause.") (emphasis
omitted).
Unlike rigid legal rules, "due process is flexible and
calls for such procedural protections as the particular
situation demands." Morrissey v. Brewer, 408 U.S. 471,
481 (1972). "The base requirement of the Due Process
Clause is that a person deprived of property be given
an opportunity to be heard 'at a meaningful time and
in a meaningful manner.'" Brewster, 149 F.3d at 984
(quoting Armstrong v. Manzo, 380 U.S. 545, 552
(1965)); see Clements v. Airport Auth. of Washoe Cnty.,
69 F.3d 321, 332 (9th Cir. 1995) ("The essential
requirements of this pre-termination process are notice
and an opportunity to respond.") (emphasis omitted).
Moreover, courts are slow to find "trial-type
proceedings are . . . constitutionally required" because
"an agency has broad discretion in choosing the form of
the proceeding that it will conduct," ASSE Int'l, Inc. v.
Kerry, 803 F.3d 1059, 1075 (9th Cir. 2015),
In the public employee context, generally
government employers must provide "some kind of
hearing prior to the discharge of an employee who has
a constitutionally protected property interest in his
employment." Cleveland Bd. of Education v.
Loudermill, 470 U.S. 532, 542 (1985) (internal
quotation marks omitted). In most cases, the employer
complies with procedural due process' pre-deprivation
hearing requirements when the employer provides the
employee "oral or written notice of the charges against
him, an explanation of the employer's evidence, and an
opportunity to present his side of the story," Id. at 545.
The hearing "need not be elaborate" because it does not

15a
need to "definitively resolve the propriety of the
discharge" or approximate a trial-like proceeding. Id.;
see Gilbert v. Homar, 520 U.S. 924, 929 (1997)
(explaining "that a public employee dismissable only
for cause was entitled to a very limited hearing prior to
his termination, to be followed by a more
comprehensive post-termination hearing") (emphasis
added). Therefore, the pre-termination hearing need
only serve as an "initial check" to ensure the
employee's discharge is "reasonable," Gilbert, 520 U.S.
at 929 (quoting Loudermill, 470 U.S. at 545-46, and not
"baseless or unwarranted," id. at 531 (quoting Fed.
Deposit Ins. Corp. v. Mallen, 486 U.S. 230, 240 (1988));
see also Clements, 69 F.3d at 333 n.15 ("A
pre-termination hearing . . . does not constitute an
'adjudication.'"). Moreover, courts are more likely to
hold a meager pre-termination process satisfied due
process if the employer provides a robust
post-termination process. Brewster, 149 F.3d 971, 986
(9th Cir. 1998) (explaining "meager" pre-deprivation
hearing satisfies due process); see generally
Loudermill, 470 U.S. at 546 (warning that to require
robust pre-termination procedures "would intrude to
an unwarranted extent on the government's interest in
quickly removing an unsatisfactory employee").
To determine whether a public employer offered an
employee adequate process under the Fourteenth
Amendment, courts must weigh three factors.
First, the private interest that will be affected by
the official action; second, the risk of an erroneous
deprivation of such interest through the procedures
used, and the probable value, if any, of additional or

16a
substitute procedural safeguards; and finally, the
Government's interest, including the function
involved and the fiscal and administrative burdens
that the additional or substitute procedural
requirement would entail.

Mathews v. Eldridge, 424 U.S. 319, 335 (1976).
Under the first factor, a plaintiff's interest in
continued employment as a tenured employee is
substantial and weighs in favor of requiring defendants
to offer procedural safeguards. Loudermill, 470 U.S. at
543 ("[T]he significance of the private interest in
retaining employment cannot be gainsaid" because of
the "severity of depriving a person of the means of
livelihood"); see Gilbert, 520 U.S. at 932 (explaining
the length and finality of the deprivation affect courts'
determination as to how much process is due). The first
factor also considers the ultimate hardship plaintiff
suffers because of the deprivation and not merely the
size of the deprivation. See Matthews, 424 U.S. at 342
(explaining that "the possibility of access to private
resources" and "other forms of government assistance"
could justify fewer procedural protections before a
deprivation). However, where post-termination process
could provide plaintiff with reinstatement and back
pay for an erroneous termination, the first factor does
not weigh as strongly in favor of more process. Cf. id.
at 340; see also Brady Decl. Ex 1 at 53 & 56 (stating
that back pay, back benefits, and reinstatement are
available under the collective bargaining agreement if
an employee prevails in arbitration).
In an employment dispute, the third factor also

17a
usually weighs in favor of a more robust process. In a
wrongful termination case, "some opportunity for the
employee to present his side of the case is recurringly
of obvious value in reaching an accurate decision"
because such cases "often involve factual disputes."
Loudermill, 470 U.S. at 543; see id. ("Even where the
facts are clear, the appropriateness or necessity of the
discharge may not be[.]"). However, the mere fact that
the employer could later recant its discipline does not
make out a procedural due process violation. Mackey
v. Montrym, 443 U.S. 1, 13 (1979) ("The Due Process
Clause simply does not mandate that all governmental
decision[-]making comply with standards that assure
perfect, error-free determinations."). This is
particularly so because "the Government has a much
freer hand in dealing with citizen employees than it
does when it brings its sovereign power to bear on
citizens at large." Heidt v. City of McMinnville, 2015
WL 9484484, at *6 (D. Or. Dec. 29, 2015) (quoting
NASA v. Nelson, 562 U.S. 134, 148 (2011)) (internal
quotation marks omitted).
The weight of the third factor can shift when the
defendant has unusually strong interests in speedy
action. When a case involves a highly visible public
employees whose job depends upon public trust,
employers may under certain circumstances impose
adverse employment actions without any
pre-deprivation process. Gilbert, 520 U.S. at 930
("[W]here a State must act quickly, or where it would
be impractical to provide predeprivation process,
postdeprivation process satisfies the requirements of
the Due Process Clause").

18a
The Ninth Circuit held a fired teacher deserved no
process before he was suspended without pay in
Mustafa v. Clark County School District, 157 F.3d
1169, 1177 (9th Cir. 1998). There, a student filed a
police report that charged the plaintiff with "Open and
Gross Lewdness" that involved sexual misconduct. Id.
at 1172. Four days later, the defendant school district
suspended the plaintiff without pay. Id. The
superintendent also recommended that the school
board should quickly terminate the plaintiff. Id. The
following week, the defendant offered a
pre-termination hearing so the plaintiff could explain
his side of the story. Id. at 1173. There was also a
subsequent arbitration. Id. Even though the defendant
ultimately reinstated the plaintiff because the
student's charge could not be substantiated, the
defendant did not violate procedural due process by
suspending the plaintiff without any pre-deprivation
process, Id. at 1177. The Ninth Circuit explained that
because "the employee 'occupie[d] a position of great
public trust and high public visibility,'" the defendant
offer[ed] a reasonably prompt post-deprivation hearing,
and assurance exist[ed] that the defendant ha[d]
"reasonable grounds" to support its decision,
pre-deprivation process was unnecessary because the
need for speedy action outweighed concerns of an
erroneous deprivation. Id. at 1177 (quoting Gilbert, 520
U.S. at 932).
The Supreme Court has held that an employer may
have no constitutional obligation to provide
pre-suspension process when "an independent third
party has determined that there is probable cause to
believe the employee committed a serious crime[,]"

19a
such as when the plaintiff is arrested and formally
charged. Gilbert, 520 U.S. at 934. In Mustafa, the
plaintiff was neither arrested nor charged; however,
the student filed a police report which, combined with
the defendant's conversation with the student,
provided sufficient assurance that the defendant had
reasonable and not arbitrary grounds for the adverse
employment action. Mustafa, 157 F.3d at 1177. In that
case, the need for preserving public confidence in the
school, compounded with the assurances of
reasonableness provided by the student's complaint
and defendant's investigation, outweighed the risk of
erroneous deprivation.

Mustafa and Gilbert do not control the analysis

here because they concerned the right to
pre-deprivation process before suspension without pay,
not the right to pre-deprivation process before
termination. These cases do, however, illustrate how
an employer's pressing need to take action can affect
the Mathews balancing test. Here, the university's
interest in protecting student safety, maintaining
public confidence, avoiding Title IX liability, and
minimizing the disruption to students' education are
weighty and considerable. Further, like in Mustafa,
defendants relied on a student complaint and an
internal investigation before making the termination
decision. Therefore, considering the totality of the
circumstances, the Court finds the third factor weighs
heavily in favor of upholding the university's process as
constitutionally adequate so long as it provided
plaintiff the basic pre-termination protections of notice
and an opportunity to present his side of the story.

20a
Having concluded that the first Matthews factor
favors more process and the third Matthews factor
favors upholding the process provided as adequate, the
Court turns to the second factor. The second factor is
the "most important" because it considers "the risk of
erroneous deprivation and the likely value of any
additional procedures." Gilbert, 520 U.S. at 933. On
this point, plaintiff points to a number of alleged
deficiencies in the process. Specifically, plaintiff argues
that (1) he was unfairly surprised by the university's
decision to terminate his employment because he did
not know the university considered the discipline
before his January 16 meeting and did not have a
meaningful opportunity to respond before the short
January 20 deadline; (2) he could not view the original
copies of the student complaints against him and had
to rely on oral representations of the complaints; and
(3) defendants' hostility is evidence that they
predetermined the outcome of the process, thereby
denying plaintiff any meaningful opportunity to be
heard. [FN 2]
First, plaintiff argues that defendants violated his
procedural due process rights by not giving him
sufficient notice that the university considered
terminating their employment relationship. In order to
satisfy procedural due process' "low" notice
requirements, defendants must take "reasonably
calculated" steps to "apprise interested parties of the
pendency of the action and afford them an opportunity
to present their objection." Espinosa v. United Student
Aid Funds, Inc., 553 F.3d 1193, 1202 (9th Cir.2008)
(quoting Mullane v. Cent. Hanover Bank & Trust Co.,
339 U.S. 306, 314 (1950)). As such, mere notice of the

21a
charges against an employee will not suffice. See
Matthews v. Harney Cnty. Sch. Dist. No. 4, 819 F.2d
889, 893 (9th Cir. 1987) (holding that a public employer
violates due process if the termination comes before the
employee "was ever aware that her job was in
jeopardy"). Notice that the university specifically
contemplated firing plaintiff is an essential part of due
process because plaintiff must be given an opportunity
to "present reasons . . . why a proposed action should
not be taken should not be taken." Novak v. United
States, 795 F.3d 1012, 1023 (9th Cir. 2015) (quoting
Loudermill, 470 U.S. at 546) (emphasis added and
alterations normalized).
Defendants persuasively argue notice is
constitutionally adequate because they informed
plaintiff about the impending termination on January
16, five days before it took effect, and plaintiff could
submit additional evidence or testimony until January
20. Defendants did not owe a duty to notify plaintiff
that they were considering his termination before they
finished their investigation, See Loudermill, 470 U.S.
at 543 (explaining that notice and "some opportunity"
to rebut the charge before the termination is effective
satisfy procedural due process). Plaintiff does not
dispute he was fully aware of the university's intent to
fire him before the termination took effect and as such,
cannot reasonably argue he did not receive notice of
the termination.
Plaintiff contends the notice was constitutionally
inadequate because the university gave him too short
a period to provide additional information. Plaintiff
characterizes defendants' deadline as unreasonable

22a
since it only provided plaintiff with one full business
day to respond. Defendants notified plaintiff of the
termination decision on January 16, a Friday.
Although plaintiff had four days to respond to the
decision, those four days included a weekend and a
holiday (Martin Luther King, Jr. Day.)
Defendants rejoin that plaintiffs' sham affidavit
fails to raise a genuine dispute over material fact that
he had sufficient time to respond meaningfully. See
Kennedy v. Allied Mut. Ins. Co., 952 F.2d 262, 266 (9th
Cir. 1991) ("The general rule in the Ninth Circuit is
that a party cannot create an issue of fact by an
affidavit that contradicting his prior deposition
testimony" because summary judgment loses its utility
if courts cannot screen out sham issues of fact),
Defendants explain that even though plaintiff's
declaration proffered that he did not have sufficient
opportunity to respond, plaintiff recognized in a
deposition that defendants offered him some
opportunity after receiving the termination notice on
January 16. Walkup Decl. Ex. 1 at 5 Mar. 15, 2017.
Under the appropriate caution against aggressively
applying the sham affidavit rule, the Court finds
defendants' argument unavailing. Courts must apply
this rule with all due caution because "the rule . . .
threatens to ensnare parties who may have simply
been confused during their deposition testimony and
may encourage gamesmanship by opposing attorneys."
Van Asdale v. Int'l Game Tech., 577 F.3d 989, 998 (9th
Cir. 2009); see Yeager v. Bowlin, 693 F.3d 1076, 1080
(9th Cir. 2012) (explaining that the sham affidavit rule
"is in tension with the principle that the court is not to

23a
make credibility determinations when granting or
denying summary judgment"). As such, not every
contradiction gives just cause for the Court to strike
inconsistent portions of plaintiff's allegedly sham
affidavit. Yeager, 693 F.3d at 1080. Only those
inconsistencies that are "clear and unambiguous"
justify striking the affidavit. Id. (quoting Van Asdale,
577 F.3d at 998-99). Here, the two statements do not
clearly and unambiguously conflict because plaintiff's
deposition testimony speaks to defendants' offer of
some time to respond and plaintiff's affidavit speaks to
assertion that he did not have sufficient time to
meaningfully respond. These two statements are not
irreconcilable. Therefore, the Court rejects defendants'
argument that plaintiff submitted a sham affidavit,
However, plaintiff's assertion that more time was
necessary to respond is nonetheless unpersuasive.
Plaintiff's deposition testimony indicates he was
advised not to respond to defendants' offer to submit
additional evidence. Walkup Decl. Ex. 1 at 4 Mar. 15,
2017. Because opting out of process afforded cannot
give rise to a procedural due process claim, plaintiff
fails to raise a genuine dispute of material fact that
more time would have added value to an allegedly
deficient process. Reinlasoder v. City of Colstrip, 657 F.
App'x 636, 638-39 (9th Cir. 2016); Correa v. Nampa
Sch. Dist. No. 131, 645 F.2d 814, 817 (9th Cir. 1981);
Peacock, 597 F.2d at 166.
Second, plaintiff argues that without written
explanation of the allegations against him, he did not
have a meaningful opportunity to respond. Defendants
respond they exhausted their due process requirements

24a
by providing a detailed oral summary of the evidence
against plaintiff as well as a written summary of their
findings. Walkup Decl. Ex. 1 at 5-14 Mar. 15, 2017;
Blandy Decl. Ex. 3 at 1. While the Supreme Court
recognized that generally a "tenured public employee
is entitled to oral or written notice of the charges
against him [and] an explanation of the employer's
evidence," Loudermill, 470 U.S. at 546, a summary of
evidence may, "in certain circumstance, provide
sufficient notice to allow a meaningful opportunity to
respond[,]" ASSE Int'l, Inc., 803 F.3d at 1077.
However, broad summaries of allegations do not
always provide sufficiently meaningful opportunity to
respond to the evidence, particularly where the
government declines to provide "crucial details" and
asserts that the allegations come from "confidential
sources." Id. Evidence that is more detailed would
provide plaintiff a greater opportunity to find
inconsistencies and weaknesses in defendants'
reasoning, decreasing the risk of erroneous
deprivation. Moreover, it appears defendants could
have provided access to the actual complaints without
incurring any substantial burden. Plaintiff therefore
raises a genuine dispute over material fact that
defendants deprived him of a meaningful opportunity
to respond to the charges and evidence against him.
Finally, plaintiff argues that the process afforded
violated procedural due process because defendants
must offer some degree of an open mind to hearing and
evaluating plaintiff's arguments in order to comply
with basic fairness. See Withrow v. Larkin, 421 U.S.
35, 46-47 (1975) (explaining that the due process right
to a fundamentally fair tribunal "applies to

25a
administrative agencies"). In order to provide a
meaningful opportunity to safeguard a plaintiff's
protected liberty or property interests, defendants
cannot offer process as a mere formality and cannot
listen to plaintiff's evidence with a tin ear because a
fundamentally fair hearing requires some possibility of
altering defendants' decision. Brady v. Gebbie, 859
F.2d 1543, 1555 (9th Cir. 1988); Matthews v. Harney
County, 819 F.2d at 893-94 ("Due process of law is not
present where the state has gone through the
mechanics of providing a hearing, but the hearing is
totally devoid of a meaningful opportunity to be
heard.") (quoting Washington v. Kirksey, 811 F.2d 561,
564 (11th Cir. 1987)) (alterations normalized).
In the procedural due process context, courts
presume government defendants exercise rational,
good faith decision-making. In order to "overcome a
presumption of honesty and integrity in those serving
as adjudicators," plaintiff must show either that the
decision-maker was actually biased or that "the
probability of actual bias on the part of the judge or
decision[-]maker is too high to be constitutionally
tolerable." Withrow, 421 U.S. at 47.
To show actual bias, plaintiff must show
decision-makers "display a deep-seated favoritism or
antagonism that would make fair judgment
impossible." Liteky v. United States, 510 U.S. 540, 555
(1994) see Stivers v. Pierce, 71 F.3d 732, 744 (9th Cir.
1995) (explaining some partiality or hostility standing
alone does not rebut the presumption of honesty in
government decision-making); United States v. State
of Or., 44 F.3d 758, 772 (9th Cir. 1994) (explaining that

26a
"generalized suspicion of inhospitable treatment . . . ,
in itself," is insufficient to establish a due process
violation).
"Supreme Court precedent reveals only three
circumstances in which an appearance of bias – as
opposed to evidence of actual bias" – violates
procedural due process. Crater v. Galaza, 491 F.3d
1119, 1131 (9th Cir. 2007). There is an intolerable risk
that decision-makers will unreasonably prejudge an
issue when they have "direct, personal, substantial
pecuniary interest in reaching a conclusion against one
of the" participants, are "embroiled in a running, bitter
controversy" with one of the participants, or
meaningfully participated in "the accusatory process."
Id. (citations and quotation marks omitted) (alterations
normalized); see In re Murchison, 349 U.S. 133, 136
(1955) (explaining that due process reflects the maxim
that "no man can be a judge in his own case and no
man is permitted to try cases where he has an interest
in the outcome").
Because plaintiff does not come forward with
substantial evidence that would support a finding of
apparent bias, plaintiff must come forward with
evidence of actual bias strong enough to overcome the
presumption of honesty in decision-making of
government officials.
On this point, plaintiff testifies to the hostility
during the December 18, 2014 meeting and bemoans
that "[a]ny attempt at an answer I provided became
contested." Pavel Decl. ¶ 5. Plaintiff also testifies that
an investigator said, "[w]e're going to find a pattern;

27a
you might as well admit it." Id. ¶ 6. Even assuming
that testimony could support a finding of actual bias,
it would be insufficient to support a due process claim
because it shows bias on the part of the investigators
and not on the part of the final decision-makers. See
Lumbreras v. Roberts, 319 F. Supp. 2d 1191, 1211 (D,
Or. 2004) (granting summary judgment on a
procedural due process claim because it was
"undisputed that the ultimate decision-makers acted
free of the influence of the allegedly biased actor), aff'd,
156 F. App'x 952 (9th Cir. 2005); Holder, 2016 WL
1725299, at *3 (Finding insufficient evidence that the
final decision-maker, rather than the plaintiff's direct
supervisor, was biased).
In his declaration, plaintiff also says an
unidentified person told him that no reconsideration
was possible after the January 16 meeting. Pavel Decl.
¶ 13. That statement is inadmissible hearsay.
"Hearsay is a statement, other than one made by the
declarant while testifying at the trial or hearing,
offered in evidence to prove the truth of the matter
asserted." Orr v. Bank of America, NY & SA, 285 F.3d
764, 778 (9th Cir. 2002) (quoting Fed. R. Evid. 801(c))
(internal quotation marks omitted). Hearsay is
inadmissible "unless it is defined as non-hearsay under
Federal Rule of Evidence 801(d) or falls within a
hearsay exception under Rules 803, 804 or 807." Id.
The mere fact that a litigant offers hearsay evidence
does not prevent that evidence from being considered
on summary judgment "so long as the underlying
evidence could be provided in an admissible form at
trial, such as by live testimony[,]" but the litigant bears
the burden of explaining that the evidence would be

28a
admissible in some form at trial. JL Beverage Co., LLC
v. Jim Beam Brands Co., 828 F.3d 1098, 1110 (9th Cir.
2016). Without assurance that the evidence would be
admissible, it is insufficient to rebut defendants'
presumption of good faith government
decision-making. Chao v. Westside Drywall, Inc., 709
F. Supp. 2d 1037, 1048 & 1058 (D. Or. 2010)
(explaining "deference to the non-moving party has
limits" because "speculative testimony" or a scintilla of
evidence is insufficient to stave off a motion for
summary judgment under Federal Rule of Civil
Procecdure 56(c)(1)'s requirement that the non-movant
point to specific facts).
Federal Rule of Civil Procedure 56(e) gives courts
discretion to temper the harsh results of losing a
motion for summary judgment on evidentiary
technicalities by providing litigants an opportunity to
cure deficiencies in the record. Sch. Dist. No. 1J,
Multnomah Cnty., Or. v. ACandS, Inc., 5 F.3d 1255,
1261 (9th Cir. 1993) ("When a party opposing summary
judgment fails to comply with the formalities of Rule
56, a court may choose to be somewhat lenient in the
exercise of its discretion to deal with the deficiency.").
While the Court could provide another opportunity for
plaintiff to properly support his assertion, the Court
declines to exercise discretion under 56(e) because it
would be futile. As the Court will explain below, even
if plaintiff were able to raise a genuine dispute of
material fact on this point, the Court dismisses
plaintiff's procedural due process claim on the basis
that defendants deserve qualified immunity.
Finally, plaintiff points to Ms. Merskin's testimony

29a
that many of OAAEO's investigations proceed under a
presumption of guilt and under motivated reasoning,
invariably lead to discipline. Merskin Decl. ¶ 10
("[G]iven my past experience with the [OAAEO's]
process, and the hostile, accusatory tone of the
December meeting, it seemed to me a foregone
conclusion that the investigation would determine that
he was guilty as charged and he would be disciplined
in some way."). Although this is indirect, relatively
weak evidence of actual bias, plaintiff's affidavit from
a third party could raise a triable issue regarding
whether defendant had a meaningful opportunity to
change the termination decision between January 16
and January 21. But cf. Liteky, 510 U.S. at 555
(holding, in the context of judicial proceedings, that
"opinions formed . . . on the basis of facts introduced or
events occurring in the course of the current
proceedings, or of prior proceedings do not constitute a
basis for a bias or partiality unless they display a
deep-seated favoritism or antagonism that would make
fair judgment impossible.").
On the merits, plaintiff's procedural due process
claim would survive summary judgment because there
are genuine issue of material fact regarding whether
the decision-makers were biased and whether access to
the written charges against him would have improved
his ability to meaningfully respond to those charges.
Nonetheless, as explained below, defendants are
entitled to summary judgment because of qualified
immunity.

30a
b.

Qualified Immunity for Procedural Due
Process

The doctrine of qualified immunity shields public
officials from bearing the burden of suit for damages
"insofar as their conduct does not violate clearly
established statutory or constitutional rights of which
a reasonable person would have known." Harlow v.
Fitzgerald, 457 U.S. 800, 818 (1982); see Davis v.
Scherer, 468 U.S. 183, 195 (1984) ("The qualified
immunity doctrine recognizes that officials can act
without fear of harassing litigation only if they
reasonably can anticipate when their conduct may give
rise to liability for damages[.]"). Moreover, the
justifications for granting qualified immunity are
strongest where officials must act "swiftly and firmly,"
Scheuer v. Rhodes, 416 U.S. 232, 246 (1974), abrogated
on other grounds by Harlow, 457 U.S. 800, because of
"the danger that the threat of . . . liability would deter
[officials'] willingness to execute [their duties] with the
decisiveness and the judgment required by the public
good[,]" id. at 240.
Determining whether officials are owed qualified
immunity involves two inquiries: (1) whether, taken
in the light most favorable to the party asserting
the injury, the facts alleged show the officer's
conduct violated a constitutional right; and (2) if so,
whether the right was clearly established in light of
the specific context of the case.

al-Kidd v. Ashcroft, 580 F.3d 949, 964 (citing Saucier
v. Katz, 533 U.S. 194, 201 (2001)), rev'd on other
grounds, 536 U.S. 731 (2011). Under either prong of

31a
the inquiry, courts may not import disputed material
facts, Tolan, 134 S. Ct. at 1866. As explained above,
taking the evidence in the light most favorable to
plaintiff, he has shown a violation of his procedural due
process rights. The question is whether those rights
were clearly established.
The "far-reaching" protections of qualified
immunity extend to officials who make reasonable
mistakes, Brewster, 149 F.3d at 977; see Hunter v.
Bryant, 502 U.S. 224, 229 (1991) (explaining that
qualified immunity "gives ample room for make
mistaken judgments" and applies where the legality of
the conduct is a close call because "officials should not
err always on the side of caution") (quoting Malley v.
Briggs, 475 U.S. 335, 343 (1986) and Davis v. Scherer,
468 U.S. 183, 196 (1984)). The "government interest in
avoiding unwarranted timidity on the part of those
engaged in the public's business [is] the most
important special government immunity-producing
concern," Filarsky v. Delia, 566 U.S. 377, 390 (2012)
(quoting Richardson v. McKnight, 521 U.S. 399, 409
(1997)) (internal quotations omitted), because "holding
officials liable for reasonable mistakes might
unnecessarily paralyze their ability to make difficult
decisions in challenging situations, thus disrupting the
effective performance of their public duties[,]" Mueller
v. Auker, 576 F.3d 979, 993 (9th Cir. 2009). As such,
"[t]o determine whether a constitutional right has been
clearly established for qualified immunity purposes, we
must survey the legal landscape and examine those
cases that are most like the instant case" to find
whether the law is so clear that no reasonable official
would be unaware of the risk of violating plaintiff's

32a
rights. Krainski v. Nev. ex rel. Bd. of Regents of Nev.
Sys. of Higher Educ., 616 F.3d 963, 970 (9th Cir. 2010)
(quoting Trevino v. Gates, 99 F.3d 911, 917 (9th Cir.
1996)) (quotations omitted). The defendant need not
identify "a case directly on point, but existing
precedent must have placed the statutory or
constitutional question beyond debate." Ashcroft v.
al-Kidd, 563 U.S. 731, 741 (2011).
Procedural due process requires a fact-specific and
mercurial inquiry. See Gilbert, 520 U.S. at 930
(explaining any categorical rule in the procedural due
process context is "indefensible"). As the Ninth Circuit
has explained
[F]or all its consequence, due process has never
been, and perhaps never can be, precisely defined.
Rather, the phrase expresses the requirement of
fundamental fairness, a requirement whose
meaning can be as opaque as its importance is lofty.
As a result, deciphering and applying the Due
Process Clause is, at best, an uncertain enterprise.
. . . After all, unlike some legal rules, due process is
not a technical conception with a fixed content
unrelated to time, place and circumstances. . . . One
cannot accurately predict how any specific case will
be decided.

Brewster, 149 F.3d at 983-84 (quotation marks and

citations omitted). As such, procedural due process
claims "can rarely be considered 'clearly established' at
least in the absence of closely corresponding factual
and legal precedent," Baker v. Racansky, 887 F.2d 183,
187 (9th Cir. 1989) (quotation marks omitted).

33a
Plaintiff makes no arguments concerning qualified
immunity. The Court concludes defendants did not
violate a clearly established right. It is not at all clear
how much pre-termination process plaintiff deserved
because of the visibility of plaintiff's position, the
necessity for public confidence to do his job effectively,
the student safety concerns, and the robust
post-termination arbitration process offered to
plaintiff. See Brewster, 149 F.3d at 984 (explaining
that the Supreme Court is expanding the rule that
pre-deprivation hearings are not always required).
While Gilbert and Mustafa occurred in the context of
public employers suspending employees without pay
rather than terminating them, the case law is opaque
as to how these precedents apply in the termination
setting given the university's particular interest in
fostering student safety and a productive learning
environment. See Sinaloa Lake Owners Ass'n v. Tudor,
882 F.2d 1398, 1406 (9th Cir. 1989) ("The Supreme
Court has repeatedly held that summary governmental
action taken in emergencies and designed to protect
the public health, safety and general welfare does not
violate due process."), overruled on other grounds by
Armendariz v. Penman, 75 F.3d 1311, 1324 (9th Cir.
1996). It is not clearly established that plaintiff was
entitled to any more pre-termination process than he
received.
Even assuming defendants violated plaintiff's due
process rights by deciding to provide only an oral
summary of the evidence at the January 16 meeting,
that decision is a reasonable mistake based on the
unclearly defined law. Brewster, 149 F.3d at 977 ("[I]n
order to ensure that government officials receive

34a
necessary guidance, courts should focus the qualified
immunity inquiry at the level of implementation."). In
Loudermill, 470 U.S. at 546, the Supreme Court
required employers to provide oral or written notice of
the changes against plaintiff and "an explanation of
the employer's evidence" at the pre-termination
hearing. Here, the university asked detailed and
thorough questions to solicit plaintiff's responses to
each and every allegation the student made in her
report to the police. See Thornton Decl. Ex. 2 (doc. 66);
Walkup Decl. Ex, 1 Mar. 15, 2017. The university also
provided plaintiff with a written summary of the
factual findings supporting the termination decision.
Blandy Decl. Ex. 3 at 1. That process reasonably
complies with Loudermill. Further, defendants
reasonably could have concluded that fewer procedural
protections were necessary in light of the student's
police report. Mustafa, 157 F.3d at 1177 (explaining a
police report filed by a student that a teacher engaged
in sexual misconduct serves as substantial assurance
that adverse employment action is not baseless or
unwarranted). Not every reasonable official would be
on fair notice that a detailed oral recounting is
insufficient because the pre-termination process is not
an adjudication but merely serves as an initial check to
ensure the university's decision is based on some
evidence and not arbitrary. See Dosier v. Cent. Oregon
Cmty. Coll., 2015 WL 6121907, at *3 (D. Or. Oct. 14,
2015) (explaining a pre-dismissal letter stating the
reasons for termination and the opportunity to respond
to those reasons satisfied procedural due process).
Moreover, plaintiff's arguments that defendants
violated procedural due process by depriving him of

35a
fair tribunal are unavailing in the qualified immunity
context because the law is not clearly established given
the particular contours of this case. Even though it "is
well-settled that the Due Process Clause prevents the
state from depriving a plaintiff of a protected property
interest without a fair trial in a fair tribunal," Stivers,
71 F.3d at 741 (quotation marks omitted), case law
does not clearly establish that a pre-termination
process requires unbiased arbiters when plaintiff has
access to a robust post-termination arbitration under
his collective bargaining agreement. As the Ninth
Circuit explained, "the decision[-]maker in a
pre-termination hearing need not be impartial, so long
as an impartial decision[-]maker is provided at the
post-termination hearing" because the pre-termination
process is not a full adjudication on the merits.
Clements, 69 F.3d at 333 n.15 (emphasis in original);
Sadid v. Vailas, 936 F. Supp. 2d 1207, 1216 & 1231 (D.
Idaho 2013) (holding that participation of university
president in pre-termination proceedings did not
violate clearly established law even though the
terminated employee had personally attacked the
president's leadership in the press). [FN 3] Therefore,
because no clearly established law put defendants on
fair notice that plaintiff deserved more process, the
Court grants defendants summary judgment on
plaintiff's procedural due process claim on the grounds
defendants deserve qualified immunity.
II. Substantive Due Process
Substantive due process prohibits a government
from depriving "a person of life, liberty, or property in
such a way that . . . interferes with rights implicit in

36a
the concept of ordered liberty." Engquist v. Or. Dep't of
Agric., 478 F.3d 985, 996 (9th Cir. 2007), aff'd sub nom.
553 U.S. 591 (2008) (quoting Squaw Valley Dev. Co. v.
Goldberg, 375 F.3d 936, 948 (9th Cir. 2004)) (ellipsis in
original). "A threshold requirement to a substantive or
procedural due process claim is the plaintiff's showing
of a liberty or property interest protected by the
Constitution." Wedges/Ledges of Cal., Inc. v. City of
Phoenix, 24 F.3d 56, 62 (9th Cir. 1994). Occupational
freedom to practice the profession of one's choice is a
protected liberty interest, even though substantive due
process does not protect the right to be in any
particular job. Engquist, 478 F.3d at 996. However
because not every tort gives rise to a substantive due
process violation, substantive due process rights for
occupational liberty only give rise to liability in the
"extreme cases," such as when a government creates a
"blacklist, which when circulated or otherwise
publicized to prospective employers effectively excludes
the blacklisted individual from his occupation, much as
if the government had yanked the license of an
individual in an occupation that requires licensure." Id.
at 997-98 (citation and internal quotation marks
omitted); see Bordelon v. Chi. Sch. Reform Bd. of Trs.,
233 F.3d 524, 531 (7th Cir. 2000) (explaining that
plaintiffs must show that "the character and
circumstances of a public employer's stigmatizing
conduct or statements are such as to have destroyed an
employee's freedom to take advantage of other
employment opportunities."). Public employers'
stigmatizing statements that merely cause "reduced
economic returns and diminished prestige, but not
permanent exclusion from, or protracted interruption
of, gainful employment within the trade or profession"

37a
are not sufficient to state a due process deprivation.
Blantz, 727 F.3d at 925 (9th Cir. 2013) (quotation
marks omitted). Ultimately, plaintiff must show
defendants were arbitrary and had no reason for
effectively blacklisting him from his chosen profession
to stave off defendants' summary judgment motion.
[FN 4] FDIC v. Henderson, 940 F.2d 465, 474 (9th Cir.
1991) (explaining that plaintiffs must show the
government reasoning has "no substantial relation to
the public health, safety, morals, or general welfare")
(quoting Lebbos v. Judges of Super. Ct., Santa Clara
Cnty., 883 F.2d 810, 818 (9th Cir. 1989)).
There are two reasons why plaintiff fails to raise a
genuine dispute over material fact that preserves a
question for the jury. First, plaintiff's evidence of
blacklisting falls short of "the extremely high bar to
make out a substantive due process violation." Boyd v.
Edwards, 2015 WL 3407890, at *2 (D, Or. May 27,
2015). Plaintiff suggests that since publication of the
charges against him, he suffered irreparable harm to
his reputation and lost speaking opportunities, a grant,
a contract, and spots on doctoral committees. Pavel
Decl. ¶¶ 22-24. However, "some adverse effect on"
plaintiff's "job prospects" is insufficient to give rise to
a substantive due process claim. Engquist, 478 F.3d at
998 (quoting Bordelon, 233 F.3d at 531). Instead,
plaintiff must show it is "virtually impossible . . . to
find new employment in" plaintiff's chosen field. Id.
(quoting Bordelon, 233 F.3d at 531). In Engquist, the
plaintiff could not find work after applying for
approximately 200 jobs. Id. at 991. The Ninth Circuit
found no rational jury could find the defendant's
"defamatory statements to two or three other people in

38a
the industry" had caused the plaintiff's difficulty
finding work, holding instead that the plaintiff merely
showed she had difficulty finding a job in the same
highly specialized field in Oregon. Id. at 999. Here,
plaintiff concedes he has not applied to any jobs as
there have been no openings. Pavel Dep. 215:8-16. As
such, plaintiff fails to raise a genuine dispute over
material fact that defendants essentially blacklisted
him from teaching.
Second, the Court must grant defendants qualified
immunity because the law is not clearly established. As
one court in the Ninth Circuit explained, there is a
circuit split and uncertainty within the Ninth Circuit
as to whether the same actor must deprive plaintiff of
his liberty interest and publicize stigmatizing
information. See Eberhard v. California Highway
Patrol, 73 F. Supp. 3d 1122, 1131 (N.D. Cal. 2014).
Here, none of the named defendants appears on the
e-mail chain with the Register Guard that led to the
release of the police report alleging plaintiff sexually
harassed a student. See Thornton Decl. Ex, 1. In light
of the ambiguity in the law, that evidence is fatal to
plaintiff's claim and qualified immunity bars liability.
CONCLUSION
The Court GRANTS defendants' motion for partial
summary judgment (doc. 35). Plaintiff's request for oral
argument is denied as unnecessary.
IT IS SO ORDERED.
Dated this 3rd day of April 2017.

39a
/s/_________
Ann Aiken
United States District Judge
-------Footnotes:
1. Defendants challenge plaintiff's assertion on the
basis that plaintiff does not support the statement in
his declaration with personal knowledge, rendering his
lay witness testimony inadmissible under Federal
Rules of Evidence 602 and 701. See Orr v. Bank of Am.,
NT & SA, 285 F.3d 764, 773 (9th Cir. 2002) ("A trial
court can only consider admissible evidence in ruling
on a motion for summary judgment."). Similarly,
Federal Rule of Civil Procedure 56(c)(4) requires that
affidavits must be based on personal knowledge to
carry weight on a motion for summary judgment.
Plaintiff's testimony at issue speaks directly to his
awareness of the university's intent to fire him. Fed. R.
Evid. 701 (permitting lay witnesses to testify if the
testimony is "rationally based on the witness's
perception"). His statement therefore may be
considered as part of the summary judgment record.
2. Plaintiff makes two other arguments that
defendants violated plaintiff's procedural due process
rights. First, plaintiff suggests the post-termination
process was inadequate because his union withdrew
from arbitration and defendants never offered a
name-clearing hearing. However, these circumstances
do not give rise to a due process claim. First,
arbitrations can serve as a constitutionally sufficient

40a
substitute for a name-clearing hearing. Mustafa, 157
F.3d at 1179. Second, although it is certainly
understandable that plaintiff is angry he was denied
the right to participate in arbitration, that denial
stems from actions taken by the union, not by
defendants. Any claim plaintiff has regarding his
ability to participate in arbitration, therefore, must be
a claim against plaintiff's union for potentially shirking
its fiduciary duties to represent its members in good
faith. See Armstrong v. Meyers, 964 F.2d 948, 951 (9th
Cir. 1992) (holding that the availability of arbitration
can satisfy due process even if the union's decision
prevents an employee from actually participating in
arbitration); see also Vaca v. Sipes, 386 U.S. 171, 190
(1967) (explaining unions' duties to collective
bargaining unit members under the Fair Labor
Relations Act). This is consistent with precedent
explaining that a plaintiff's decision to voluntarily
withdraw from process offered does not manufacture a
procedural due process claim. Peacockv. Bd. of Regents
of Univs. & State Coll. of Ariz., 597 F.2d 163, 166 (9th
Cir. 1979).
Second, plaintiff argues that because defendants
are unable to establish that they appropriately fired
plaintiff for just cause under the collective bargaining
agreement, defendants violated plaintiff's procedural
due process rights. It is true that plaintiff's collective
bargaining agreement creates the protected property
interest that triggers procedural due process
protections here, but that does not mean the collective
bargaining agreement determines what process was
constitutionally due. If plaintiff "believes his
termination was in breach of contract, his recourse lies

41a
in a breach of contract claim, not in a procedural due
process claim." Servo v. Junginger, 2014 WL 3891751,
at *12 (D. Or. Aug. 6, 2014).
3. Because plaintiff does not come forward with
substantial evidence to rebut the presumption of
honesty in government decision-making as to plaintiff's
post-termination process, the Court cannot find that
the arbitrator appointed under plaintiff's
collective-bargaining agreement would not have
ferreted out and corrected any biased decision-making
in plaintiff's pre-termination process. Out-of-circuit
case law also finds no due process violation based on
bias in the plaintiff's pre-termination process when the
plaintiff has post-termination process available, if the
plaintiff does not actually proceed to post-termination
hearings. Sutton v. Bailey, 702 F.3d 444, 449 (8th Cir.
2012); Farhat v. Jopke, 370 F.3d 580, 597 (6th Cir.
2004). As the Fifth Circuit explained, the "state is
obligated only to make available the means by which
[the employee] can receive redress for the
deprivations." Schaper v. City of Huntsville, 813 F.2d
709, 715-16 (5th Cir. 1987) (quoting Parratt v. Taylor,
451 U.S. 527, 543 (1981), overruled on other grounds
by Daniels v. Williams, 474 U.S. 327 (1986)) (quotation
marks omitted).
4. Depending on the right at issue, courts may
inquire into the government's actual reasons or only
consider "whether the government could have had a
legitimate reason for acting as it did." Sagana v.
Tenorio, 384 F.3d 731, 743 (9th Cir. 2004), as amended
(Oct. 18, 2004) (quoting Wedges/Ledges, 24 F.3d at 66)
(emphasis in original). The standard depends on

42a
whether plaintiff alleges a violation of a fundamental
right. Id. Although there is no precedent directly on
point, it appears that rational basis review would apply
here because the liberty interest at issue here is not a
fundamental right. Cf. Country Classic Dairies, Inc. v.

State of Mont., Dep't of Commerce Milk Control
Bureau, 847 F.2d 593, 596 (9th Cir, 1998) (noting

Supreme Court precedent holding that the "right to
pursue a calling is not a fundamental right for
purposes of the Equal Protection Clause").
--------

43a

APPENDIX C
UNITED STATES DISTRICT COURT
DISTRICT OF OREGON
No. 6:16-cv-00819-AA
[Filed March 13, 2018]
CHIXAPKAID DONALD MICHAEL
PAVEL,
Plaintiff,
v.
UNIVERSITY OF OREGON; DOUG
BLANDY; PENELOPE DAUGHERTY;
and RANDY KAMPHAUS,
Defendants.

)
)
)
)
)
)
)
)
)
)
)
)
)

March 13, 2018
OPINION AND ORDER
AIKEN, Judge:
Plaintiff CHIXapkaid Pavel asserts various claims

44a
related to the termination of his employment against
defendants University of Oregon, Doug Blandy (the
University's Senior Vice Provost for Academic Affairs),
Penelope Daugherty (the University's Director of
Affirmative Action & Equal Opportunity), and Randy
Kamphaus (the University's Dean of the College of
Education).
[FN 1] Plaintiff alleges defendants
violated his rights under federal discrimination
statutes, the Due Process Clause, and the First
Amendment. I previously entered summary judgment
in defendants' favor on plaintiff's Due Process Clause
claims, and defendants now move for summary
judgment on plaintiff's remaining claims.
Oral argument on this motion was held on
November 29, 2017, at 10:00 a.m. For the reasons set
forth below, I GRANT defendants' second motion for
summary judgment (doc. 79).
BACKGROUND
Plaintiff was a tenured professor at the University
of Oregon's College of Education from September 16,
2010, until the University of Oregon ("the University")
terminated his employment contract on January 21,
2015, in response to a student's sexual harassment
complaint. At all relevant times, plaintiff was a
member of the United Academics of the University of
Oregon, American Association of University Professors
- American Federation of Teachers, AFL-CIO, ("the
Union") and the terms of his employment were
governed by the collective bargaining agreement ("the
CBA") between the University and the Union. At the
time of his termination, plaintiff was the senior Native

45a
American faculty member and the only Native
American full professor at the University. He was also
the first tenured professor at the University to be fired
for sexual harassment.
On November 15, 2014, Janne Underriner, the
University's Director of the Northwest Indian
Language Institute, received a complaint about
plaintiff's conduct at a University event the previous
night. The initial complaint came via a phone call from
the father of a first-semester freshman student. Two
days later, in a private interview with the University
of Oregon's Office of Affirmative Action and Equal
Opportunity ("OAAEO"), the student explained that
she knew plaintiff because he was a close family friend
involved in her tribal community. She had been in
touch with him several times before she began courses
at the University. At the November 14 event, the
student approached plaintiff to say hello and took a
photo with him. She alleged that plaintiff asked her to
go into the hallway and talk, because he found it
difficult to hear in the crowded main event space. The
hallway was lined with mirrors. The student stated
that plaintiff, who seemed to be intoxicated, got close
to her face and told her to turn and look at herself in
one of the mirrors. The student alleged that plaintiff
put his right arm around her and turned to her face
the mirror; while they looked in the mirror together, he
told her she was "beautiful" and that all the boys were
"drooling" over her. Dugan Decl. Ex. A at 9. The
student reported that plaintiff then kissed one of her
hands, pulled her close to him, kissed her cheek and
forehead in a non-platonic manner, rubbed her back,
and moved his hand down past her waist to rest on her

46a
butt. When she attempted to leave the interaction,
plaintiff allegedly followed her into an elevator, stood
behind her, and touched her dress and underwear
when the other elevator passengers were facing the
exit doors and could not see what he was doing. The
student did not want plaintiff to touch her in the way
that he did and felt extremely uncomfortable
throughout the interaction.
The University placed plaintiff on administrative
leave while it investigated the student's claim. The
formal investigation launched on November 20, 2014.
On November 21, 2014, plaintiff learned the university
had placed him on leave.
In an interview with OAAEO, plaintiff denied the
substance of the student's allegations and reported
that he was "surprised, shocked and discouraged" by
the allegations. Id. at 17. The were no eyewitnesses to
most of the interaction, but OAEEO interviewed
another student who corroborated some parts of the
complainant's story. OAEEO also interviewed faculty,
including Underriner, who reported that the
interaction negatively affected the student
academically, including by causing her to change her
area of study so she would not have to take classes
taught by plaintiff.
OAEEO's investigatory file also documents a
complaint, filed three years earlier by a Ph.D. student,
that plaintiff had subjected that student to
"inappropriate and unwelcome sexual attention." Id. at
18, This included inappropriate touching, including
"tight hugs," touching the student's knee repeatedly

47a
during conversation, and even poking her in the belly
button "as a joke." Id. at 53. The student reported that,
on a work-related trip, the situation escalated when
plaintiff stopped in front of a display window and
turned the student toward the window. After telling
the student to close her eyes, plaintiff allegedly put his
hand on his shoulder and then moved it along her arm
to her waist. He then turned the student toward him,
making her think he was about to kiss her. The
student expressly told plaintiff that she was interested
only in a professional relationship; he responded by
telling her that many students tell him they want to
work as part of his research team when, in fact, those
students are simply attempting to get close to him
because they are sexually attracted to him. After that
conversation, plaintiff told the student he no longer
knew how to act around her, suggested they might
have to correspond only electronically, and once again
touched the student's knee during a conversation, at
which point the student told plaintiff she no longer
wished to work with him. That earlier complaint
resulted in counseling but not in any sort of formal
discipline.
On December 18, 2014, Anne Bonner and defendant
Penny Daugherty from OAAEO sat down with plaintiff
and union representative Debra Merskin to discuss the
investigation. At the meeting, Daugherty and Bonner
relayed their suspicion that plaintiff had engaged in a
pattern of sexual harassment, and interviewed him to
collect additional information regarding the
accusations. Merskin characterized the tone of the
meeting as passive-aggressive, disrespectful, hostile,
and accusatory. She further stated that, in her

48a
experience, OAAEO always approaches investigations
in that aggressive manner—as though the investigated
faculty member's guilt were a foregone conclusion.
After the meeting, Daugherty told plaintiff that he was
free to provide any additional evidence or
documentation by January 6, 2015. Plaintiff believed
he did not have time to adequately respond, so he
never submitted any additional evidence.
At the conclusion of the University's investigation,
plaintiff and Merskin met with various staff members
on January 16, 2015, to discuss the University's
findings. Participating staff members included
defendants Doug Blandy and Randy Kamphaus. The
University found by a preponderance of the evidence
that plaintiff violated its sexual harassment policy and
interfered with students' rights to equal access to
education. Specifically, the University found that the
plaintiff "engaged in unwelcome verbal and physical
conduct of a sexual nature" that included touching a
student's back, buttocks, and underwear. Blandy Decl.
Ex. 3 at 1. The University also found that plaintiff
made "[i]nappropriate comments of a sexual nature"
and remarked "on the student's appearance after
having her stand in front of a mirror." Id. These
findings were presented to plaintiff in writing. Plaintiff
had the opportunity to respond but made no comments
during the meeting.
At the January 16 meeting, the University also
notified plaintiff it intended to terminate their
employment relationship on January 21, 2015. The
University gave plaintiff until January 20, 2015, to
submit any written response or relevant evidence to

49a
change the termination decision. Plaintiff never replied
with any additional testimony or evidence. Instead,
plaintiff responded with a request for more
information. The University did not comply with
plaintiff's request.
January 16 meeting was the first time plaintiff
learned that the university contemplated terminating
him. [FN 2]
On May 5, 2015, plaintiff grieved his termination
under the CBA. On February 22, 2016, the University
offered plaintiff the opportunity to engage in
arbitration under the CBA. Had the arbitration
proceeded, plaintiff would have been able to "call
witnesses, offer exhibits, and make arguments" that
the University did not fire him for just cause. Brady
Decl. ¶ 4 (doc. 39). Plaintiff's union withdrew from the
arbitration and as such, plaintiff never received a
post-termination hearing. [FN 3]
STANDARD OF REVIEW
Summary judgment is appropriate if "there is no
genuine dispute as to any material fact and the movant
is entitled to judgment as a matter of law." Fed. R. Civ.
P. 56(a). The moving party has the burden of
establishing the absence of a genuine issue of material
fact. Id.; Celotex Corp. v. Catrett, 477 U.S. 317, 323
(1986). If the moving party shows the absence of a
genuine issue of material fact, the nonmoving party
must go beyond the pleadings and identify facts which
show a genuine issue for trial. Celotex, 477 U.S. at 324.
"Summary judgment is inappropriate if reasonable

50a
jurors, drawing all inferences in favor of the
nonmoving party, could return a verdict in the
nonmoving party's favor." Diaz v. Eagle Produce Ltd.
P'ship, 521 F.3d 1201, 1207 (9th Cir. 2008).
DISCUSSION
This case comes at a unique moment. For years,
allegations of sexual assault and harassment have
been swept under the rug when they instead should
have been taken seriously, investigated, and decisively
acted upon. As a glance at any news source shows, that
is changing. The current national discussion revolves
daily around allegations of sexual assault and
harassment, and what institutions, communities, and
governments should do, or should have done, to
respond and protect the vulnerable.
At the same time, issues of race are coming to the
fore in a similar long-overdue manner. The impacts of
our shameful racial history, pervasive implicit bias,
and institutionalized racism are now part of any
meaningful discussion on social or institutional
responsibility in America today. Norms on both fronts
are in flux in dramatic ways, not just within
progressive segments of society, but across the nation
as whole.
The pressure facing institutions, particularly
universities, to deal swiftly, seriously, and correctly
with allegations of sexual assault is rightfully high,
because the stakes for both victim and accused are also
incredibly high. In such an environment, as the
pendulum swings away from a position it has occupied

51a
for so long, shifting presumptions and burdens of proof,
it is liable to take out many in its path. It is of no small
concern that those most likely to experience the
detrimental impacts from any unfair application of
these new priorities will be people of color.
Historically and currently, people of color shoulder
disproportionate shares of punishment. See, e.g.,
Demographic Differences in Sentencing: An Update to
the 2012 Booker Report (U.S. Sentencing Commission
Nov. 2017) (reporting that, in the federal system, black
male offenders receive sentences on average 19.1
percent longer than similarly situated white male
offenders). People of color are also disproportionately
the victims of sexual harassment. See, e.g., Tanya
Katerí Hernández, Sexual Harassment and Racial
Disparity: The Mutual Construction of Gender and
Race, 4 Gender Race & Just. 183, 184-85 (2001)
(surveying EEOC sexual harassment complaint data),
A debate rages over whether the shifts in how we deal
with campus sexual assault and harassment will
disproportionately harm men of color, Compare, e.g.,
Antuan M. Johnson, Title IX Narratives,
Intersectionality, and Male-Based Conceptions of
Racism, 9 Geo. J. Law & Mod. Crit. Race Persp. 57, 59
(2017) ("There is a history of race being used as a
political tool to shut down conversations about sexual
assault, even when it directly affects black women.")
with, e.g., Janet Halley, Trading the Megaphone for
the Gavel in Title IX Enforcement, 128 Harv. L. Rev. F.
103, 109 (2015) ("To the extent that the
campus-sexual-assault movement expresses the
priorities and visions of white middle-class women, it
may not be providing us with everything we need to

52a
know to make fair decisions in cases involving class,
race, and other key differences.")
It is well established that implicit bias affects
almost every decision that people make. See, e.g.,
Justin D. Levinson et al., Judging Implicit Bias: A
National Empirical Study of Judicial Stereotypes, 69
Fla. L. Rev. 63, 79-82 (Jan. 2017). I would be remiss if
I failed to acknowledge that such bias has
wide-ranging impacts on institutional processes as a
whole. As important decisions are made, both on the
grand scale and within the microcosm of individual
situations, we must be mindful of the ever-present risk
of perpetuating longstanding racial injustice. It is
critical to change the way we respond to sexual
harassment and assault, but members of minority
communities must not be sacrificed as part of a
knee-jerk reaction to political pressure to deal harshly
with allegations of a sexual nature.
Here, I am presented with an individual case in
which a Native American professor was fired after a
student accused him of sexual harassment. I cannot
adjudicate plaintiff's claims as a way of advancing my
own views of how best to resolve the broad policy
concerns outlined above; I am constrained to make a
ruling based on the evidence presented in this case.
Here, the evidence falls short of the necessary
threshold to proceed to trial.
I. Employment Discrimination
Discrimination

Claims:

Race

Plaintiff alleges that defendants fired him at least

53a
in part because he is Native American. He uses two
vehicles to assert his race discrimination claims: (1) a
claim, asserted via 42 U.S.C. § 1983, that individual
defendants violated 42 U.S.C. § 1981, which prohibits
racial discrimination in the formulation (or
termination) of contracts, and (2) a claim that the
University violated Title VII of the Civil Rights Act,
which prohibits racial discrimination in making
employment decisions. Here, those two claims can be
analyzed together. To establish race discrimination
under Title VII, a plaintiff must offer evidence that
gives rise to "an inference of discrimination in
whatever manner is appropriate in the particular
circumstances." Hawn v. Exec. Jet Mgmt., Inc., 615
F.3d 1151, 1156 (9th Cir. 2010). The legal principles
that guide "a court in a Title VII dispute apply with
equal force in a § 1981 action," Reynaga v. Roseberg
Forest Prod., 847 F.3d 678, 696 (9th Cir. 2017).
Plaintiff asserts that the hostile treatment that he
received from the University, and the University's
more favorable treatment of other similarly situated
professors, is evidence of discriminatory motive behind
his firing. Defendants move for summary judgment on
these claims, arguing that plaintiff cannot establish a
prima facie case of race discrimination, and even if he
could, he does not rebut the University's legitimate,
non-discriminatory reason for terminating his
employment.
"To show a prima facie case of disparate treatment,
a plaintiff must offer evidence that 'give[s] rise to an
inference of unlawful discrimination.'" Reynaga, 847
F.3d at 690 (quoting Sischo Nownejad v. Merced Cmty.

54a

Coll. Dist., 934 F.2d 1104, 1110 (9th Cir. 1991)).
One way to establish an inference of discrimination
is by satisfying the prima facie elements from
McDonnell Douglas Corp. v. Green, 411 U.S. 792,
802 . . . (1973): (1) the plaintiff belongs to a
protected class, (2) he was performing according to
his employer's legitimate expectations, (3) he
suffered an adverse employment action, and (4)
similarly situated employees were treated more
favorably, or other circumstances surrounding the
adverse employment action give rise to an inference
of discrimination.

Id. at 690-91 (citing Hawn, 615 F.3d at 1156 and
Godwin v. Hunt Wesson, Inc., 150 F.3d 1217, 1220 (9th

Cir. 1998)). At the summary judgment stage, the
nonmoving party's burden is very low; a plaintiff may
simply produce direct or circumstantial evidence
demonstrating that a discriminatory reason 'more
likely than not motivated' the employer." Id. at 691.

The parties do not dispute that plaintiff belongs to
a protected class as a racial minority, that he was
performing according to his employer's legitimate
expectations prior to the events that precipitated this
action, and that plaintiff suffered an adverse
employment action when he was terminated from his
job at the University. Plaintiff's primary argument is
that similarly situated white employees were treated
more favorably than he was. To that end, plaintiff has
presented evidence about other tenured professors who
have had formal and informal sexual harassment
complaints filed against them. The evidence presented

55a
shows that such complaints were filed against nineteen
professors, plus plaintiff. All but one of the complaints
were filed against men. [FN 4] Four cases were closed
as unfounded. Ten of the professors do not meet the
"similarly situated" test because the complained-of
conduct was substantially less serious than the conduct
at issue in plaintiff's case: those professors each
received only one complaint, which included no
allegations of physical contact. The five remaining
professors are a closer match for plaintiff's situation
because they, like plaintiff, (1) had multiple complaints
in their files, (2) were accused of inappropriate physical
contact, or (3) both. Of these five professors, three were
nonwhite (Black, Asian, and South-East Asian/Pacific
Islander), and two were white. [FN 5]
Before proceeding to discuss the specific
circumstances of the complaints against the five most
similarly situated professors, I address two of
defendants' arguments about comparator evidence.
First, defendants make much of the difference between
formal and informal complaints. A formal complaint
triggers a formal investigation and can result in formal
discipline, whereas an informal complaint is resolved
using "an informal process [that] would not result in a
finding" of misconduct and thus cannot end in
termination, Walkup Decl. Ex. 1 at 5-6, Sept, 19, 2017.
Classification of the complaint as formal or informal
rests with the complainant and is unrelated to the
severity of the alleged conduct. As a result, I do not
find the distinction between formal and informal
complaints to carry much evidentiary weight, if any. It
is the content of the complaint that matters most. A
professor informally accused of inappropriately

56a
touching a student, for example, would be more
similarly situated to plaintiff than a professor formally
accused of yelling at a student in class.
Second, the University notes that plaintiff was the
first professor against whom a formal complaint was
lodged following the renegotiation of the faculty's union
contract in 2013. They assert that due to those
changes, I should not consider evidence involving any
complaint filed against a tenured faculty member
before 2013, I agree that changes to disciplinary
procedures under the contract might be relevant to
assessing evidence of discriminatory intent. But I
reject defendants' attempts to draw a line in the sand,
cutting off any pre-2013 comparator evidence.
I now proceed to address the particular
circumstances of each of the five possible comparator
professors. One nonwhite professor ("Professor #1")
[FN 6] was accused in an informal and a formal
complaint of making inappropriate sexual comments in
class, and after an investigation found those
accusations were true, he was given an official letter of
reprimand. Another nonwhite professor ("Professor
#2") was also accused in an informal and a formal
complaint of inappropriate behavior such as comments
of a sexual nature, discriminating against women in
his workplace and classroom, and asking a former
graduate student what she would say if he expressed
romantic interest in her. When the former student
rebuffed Professor #2, he made no further advances.
Nonetheless, Professor #2 was given an official letter of
reprimand, suspended without pay for one semester,
ordered to do additional training, and warned that he

57a
could be terminated upon the next occurrence. An
anonymous report also alleged a possible physical
relationship between Professor #2 and a married
graduate student, however this report was neither
corroborated by the student in question nor
substantiated by other evidence.
The third nonwhite professor ("Professor #3") was
accused once in a formal complaint of making
unwanted verbal and physical advances towards a
student. The unwanted physical contact consisted of
kissing the student on the neck and touching her arms.
According to documents in the summary judgment
record, because this was the first time this professor
had been accused of sexual harassment and because
there were unique circumstances, including a possible
prior relationship with the complainant, Professor #3
was given a letter of reprimand, suspended without
pay for a semester, ordered to do additional training,
and warned that he could be terminated upon the next
occurrence.
A fourth professor ("Professor #4"), a white man,
was accused in an informal complaint of touching a
student's hands, telling her she was beautiful, putting
his hands on her hips, and asking to see her again. The
student told him she was not interested in anything
more than a student-teacher relationship, and he
apologized for his advances and did nothing further.
His discipline involved an informal resolution with the
student in question and a warning. Three years later,
there was a different anonymous informal report of
unknown content that also resulted in an informal
resolution.

58a
The most analogous situation involves the fifth
professor ("Professor #5"), a white man, Professor #5
was accused in a formal complaint (which actually
consisted of several complaints in one) of verbally
sexually harassing several students, retaliating
against students for rejecting his advances, and
making unwanted contact of a sexual nature with a
student when he picked up an item out of her lap and
brushed his hand past her breast. After an
investigation, he was notified that he would be
terminated, but before his termination date, he
resigned to avoid being fired. The University accepted
his resignation on the condition that he abide by the
University's non-retaliation policy, never serve in any
capacity at any future campus functions, projects, or
events, and never attend certain non-public events at
the University. The University's communications with
Professor #5 made it clear that if he had not resigned,
he would have been terminated, and despite his
voluntary spontaneous retirement, he was severely
restricted from participation in the University in the
future. He did not simply retire in good standing, but
had ongoing restrictions applied to him.
Plaintiff was accused of sexual harassment in two
informal complaints, the most recent one initiated by
a mandatory reporter upon receiving notice of the
incident at issue. The student involved in the incident
that was the subject of the second informal complaint
then decided to file a formal complaint, The student
was a first-semester freshman who accused plaintiff of
touching her, including on her buttocks and
underwear; kissing her on her hand, cheek, and
forehead; and making inappropriate comments of a

59a
sexual nature, according to OAAEO investigatory
records and a police report that she filed to that effect.
After an investigation, the University concluded the
student's allegations were true.
The level of physical touching founded against
plaintiff after an investigation makes this incident
with plaintiff objectively different from the verbal
misconduct founded against Professors #1 and #2. The
complaints against Professors #3 and #4 were
first-time complaints, unlike the instant complaint
against plaintiff.
The University's treatment of Professor #5 was
substantially similar to its treatment of plaintiff
despite the fact that the accusations against the
Professor #5, the white man who resigned, were as
severe as (or perhaps even more severe than) those
against plaintiff. Professor #5 was told that he was
going to be terminated, just as plaintiff was. Plaintiff
had four days, including weekends, in which to decide
what to do between the time he was notified of his
impending termination and when the termination
actually occurred. Similarly, Professor #5 had
somewhere between one and thirteen days, including
weekends, between when he was notified that he would
be terminated and when he submitted his resignation.
When the University accepted Professor #5's
resignation, they did so only on the condition that he
refrain from participating in future University
functions, not serve as a teacher or mentor to
University students, and abide by a number of other
rules and restrictions. There is no indication that the
University expressly offered retirement to Professor #5

60a
to help him avoid discipline. Indeed, plaintiff also
received forewarning of his impending termination,
and could have resigned during that time had he
chosen to do so.
Critically, unlike Professor #5, plaintiff had already
been counseled in the past for substantially similar
alleged acts. The circumstances of the report that
precipitated plaintiff's termination were analogous to
those of the 2011 complaint filed against plaintiff by a
different female student. The investigation of the
instant case took into consideration the fact that
plaintiff's previous discipline had included extensive
counseling, warnings, and education about appropriate
professor-student relationships, boundaries, and
physical contact. The investigation report indicated
that informal methods of counseling and disciplining
plaintiff had already been tried and had been
unsuccessful at preventing this new incident.
In sum, the evidence shows that plaintiff was
similarly situated to only one of the other professors,
Professor #5, and that both plaintiff and Professor #5
were subjected to similar discipline despite their
different races. Therefore, evidence does not exist in
the record from which a reasonable jury could conclude
that other similarly situated tenured professors in an
unprotected class were treated more favorably by the
University than was plaintiff.
Additionally, there is no evidence, circumstantial or
otherwise, in the record that any of those involved with
the decision to terminate plaintiff's employment were
influenced by racial bias. While plaintiff presents

61a
significant evidence that he was not well-liked by some
faculty, including defendant Doug Blandy who was
responsible for deciding whether to terminate
plaintiff's employment, none of that evidence supports
an inference of racial discrimination. [FN 7] Similarly,
although there is evidence OAAOE was aggressive and
disrespectful during the meetings with plaintiff, there
is no indication that aggression was a response to
plaintiff's race; indeed, Merskin stated that OAAOE
treats all accused faculty members in the same fashion.
In fact, plaintiff's case for racial discrimination appears
to arise almost entirely from the premise that because
plaintiff is an openly American Indian male, the
decision to terminate him was necessarily made in part
for that reason, and that the circumstance of his being
an openly American Indian male who was not
well-liked by some colleagues is sufficient evidence
thereof.
"[V]ery little evidence" is required to survive a
motion for summary judgment on a race discrimination
claim. Schnidrig v. Columbia Mach., Inc., 80 F.3d 1406,
1410 (9th Cir. 1996). However, very little evidence is
still some evidence. Here, there is simply no evidence
in the record from which a reasonable jury could infer
race discrimination.
II. First Amendment Retaliation Claim
Plaintiff next contends that he was terminated in
retaliation for speaking out against the firing of Dr.
Ball, a fellow Native American professor at the
University, in violation of plaintiff's First Amendment
right to engage in free speech. Specifically, plaintiff

62a
alleges that Jason Younker, the University's Assistant
Vice President and Advisor to the President, was
hostile towards plaintiff because of plaintiff's speech,
and that Younker was later interviewed as part of the
University's investigation of the allegations against
plaintiff, thereby participating in a retaliatory action
against plaintiff. Defendants move for summary
judgment on the basis that plaintiff has not put forth
any evidence that his statements were a substantial or
motivating factor in his firing, contending that the
evidence shows the University fired plaintiff for
violating its sexual harassment policy.
The Ninth Circuit has established a five-step test
for First Amendment employment retaliation claims.
Eng v. Cooley, 552 F.3d 1062, 1070 (9th Cir. 2009).
Courts analyzing such claims must ask:
f(1) whether the plaintiff spoke on a matter of
public concern; (2) whether the plaintiff spoke as a
private citizen or public employee; (3) whether the
plaintiff's protected speech was a substantial or
motivating factor in the adverse employment
action; (4) whether the state had an adequate
justification for treating the employee differently
from other members of the general public; and (5)
whether the state would have taken the adverse
employment action even absent the protected
speech.

Id. Here, there are two groups of potentially protected
speech at issue: statements plaintiff made in 2012 and
statements plaintiff made in 2014.

63a
i. 2012 Statements
In 2012, plaintiff spoke out against the firing of Dr.
Ball, a Native American professor at the University.
According to plaintiff, he spoke on this issue of public
concern as a member of the community rather than in
his capacity as a state employee. It is not necessary to
decide whether plaintiff's statements met the public
concern and private citizen tests, because there is
insufficient evidence of causation. After plaintiff spoke
out in meetings and other venues for several months,
two years went by until the events that precipitated
this case, during which time plaintiff does not claim
adverse employment actions were taken against him.
I recognize that, as a practical matter, institutional
memory can be long, and individuals may not forget
exercises of free speech rights that they disagreed with,
going back two, four, or ten years. However, as a
matter of law, a temporal proximity of two years
between the protected activity and the adverse
employment action, by itself, is not enough to
demonstrate a discriminatory purpose. Clark Cty. Sch.
Dist. v. Breeden, 532 U.S. 268, 273-74 (2001); Keyser
v. Sacramento City Unified Sch. Dist., 265 F.3d 741,
752 (9th Cir. 2001). Here, other evidence indicating a
causal link between the 2012 speech and the 2015
firing is not present in the record.
ii. 2014 Statements
Younker was hired in 2014. At that time, plaintiff
again expressed his belief that Dr. Ball should not have
been fired and that his firing should now be handled in
a particular way by the University, including with an

64a
apology and a ceremony. Younker did not follow
plaintiff's recommendation, but explained that he was
handling the situation in a different manner and,
according to plaintiff, expressed understanding that
plaintiff might be uncomfortable because he had
worked with Dr. Ball.
Plaintiff argues that there is a link between the
2012 statements and the 2014 statements because
Younker was hired to fill a position created in part to
replace Dr. Ball's previous job. Plaintiff also points to
circumstantial evidence that Younker was not cordial
with plaintiff, changed his mind about supporting
plaintiff's proposal for a scholarship program, and
stated that the sexual harassment allegations against
plaintiff were widely known.
Whether the plaintiff's protected speech was a
substantial or motivating factor in defendants' decision
to fire him is a question of fact. Eng, 552 F.3d at 1071.
Plaintiff here has not alleged facts sufficient for a
reasonable jury to find that his speech was a
motivating factor in defendants' decision to fire him.
Although plaintiff alleges some facts which, if true,
tend to demonstrate that Younker did not like plaintiff,
there are several gaps in the facts and circumstances
that prevent them from being sufficient for plaintiff's
purpose here.
First, "[courts] have recognized previously that, in
some cases, causation can be inferred from timing
alone where an adverse employment action follows on
the heels of protected activity." Villiarimo v. Aloha
Island Air, Inc., 281 F.3d 1054, 1065 (9th Cir. 2002).

65a
However, here, three months passed between plaintiff's
most recent arguably protected speech and the
initiation of the investigation of the sexual harassment
complaint against plaintiff. Plaintiff does not claim any
adverse employment actions against him during these
three months; rather, the adverse employment action
at issue occurred after a student reported an incident
of sexual harassment, and filed a police report and
then a complaint with the University, spurring an
investigation. When an employer puts forth a
legitimate reason for the adverse employment action,
a temporal proximity of three months is by itself
insufficient circumstantial evidence to defeat a motion
for summary judgment. See Erickson v. Pierce Cty.,
960 F.2d 801, 803 (9th Cir. 1992) (court granted
summary judgment for employer where there was
temporal proximity of three months between employer
learning of employee's protected actions and that
employee's firing).
Secondly, even if Younker did not like plaintiff's
statements about Dr. Ball, that fact is of only ancillary
relevance. Younker did not conduct the investigation,
give input to the decisionmakers during the formal
investigation, or make the decision to fire plaintiff.
Younker's role consisted of accompanying the
complainant to her initial interview before the
investigation began, upon her request. Further, when
asked by a University OAAEO investigator if he had
any more information about the incident, the report, or
other concerns, or anyone else who might have such
information, Younker conveyed in a one-sentence email
that the complainant's father had told him that
plaintiff assaulted someone in Washington. When

66a
viewed in the light most favorable to plaintiff, this is
evidence that at most Younker responded to requests
as they arose in a way that was unhelpful to and
unsupportive of plaintiff, It is not, however, sufficient
evidence upon which a reasonable jury could find that
Younker retaliated against plaintiff for speaking out
against Dr. Ball's termination.
Even if plaintiff spoke on a matter of public concern
as a private citizen when he opposed the decision to
fire Dr. Ball, there is simply insufficient evidence in
the record to support the inference that plaintiff's
protected speech was a substantial or motivating factor
in his termination, Plaintiff further does not refute
defendants' claim that the University would have
terminated his employment for violating the sexual
harassment policy, even absent the protected speech.
His claim therefore cannot survive defendants' motion
for summary judgment.
III. Employment Discrimination Claims: Pretext
If a plaintiff establishes a prima facie case of
discrimination or retaliation, the burden then shifts to
the defendant employer to articulate a legitimate,
non-discriminatory reason for the adverse employment
action. Chuang v. Univ. of Cal. Davis, Bd. of Trs., 225
F.3d 1115, 1123-24 (9th Cir. 2000), Hawn, 615 F.3d at
1155. For the reasons explained above, a pretext
analysis is not necessary because plaintiff has failed to
make out a prima facie case of either discrimination or
retaliation. Even if plaintiff had met his prima facie
burden, however, summary judgment would be
warranted because there is insufficient evidence of

67a
pretext.
Defendants assert that they terminated plaintiff
because he violated the sexual harassment policy by
subjecting a female student to nonconsensual contact
and comments of a sexual nature, as established after
an investigation.
Defendants' burden of proof here is low.
The defendant need not persuade the court that
it was actually motivated by the proffered reasons.
It is sufficient if the defendant's evidence raises a
genuine issue of fact as to whether it discriminated
against the plaintiff. To accomplish this, the
defendant must clearly set forth, through the
introduction of admissible evidence, the reasons for
the plaintiff's rejection. The explanation provided
must be legally sufficient to justify a judgment for
the defendant. If the defendant carries this burden
of production, the presumption raised by the prima
facie case is rebutted . . . .

Texas Dep't of Cmiy. Affairs v. Burdine, 450 U.S. 248,

254-55 (internal citations omitted). If defendant meets
this burden, plaintiffs must then raise a triable issue
of material fact as to whether the defendant's proffered
reasons for their terminations are mere pretext for
unlawful discrimination, Hawn, 615 F.3d at 1155.
"[A] plaintiff's burden is much less at the prima
facie stage than at the pretext stage." Hawn, 615 F.3d
at 1158. In order to get past summary judgment, even
after proving a prima facie case of discrimination and

68a
employment retaliation, plaintiff must present specific,
substantial evidence of pretext that will survive
rigorous examination. Steckl v. Motorola, Inc., 703 F.2d
392, 393 (9th Cir. 1983).
Evidence of pretext could take many forms,
McDonnell Douglas, 411 U.S. at 804-05.
For example, the manner in which the plaintiff
was treated by his employer during his employment
may be relevant to a showing of pretext.
Additionally, the fact that persons outside the
plaintiff's protected class were treated better for
offenses of comparable seriousness could also help
demonstrate pretext. . . . [W]hether summary
judgment is appropriate depends on a number of
factors, including the strength of the plaintiff's
prima facie case and the probative value of the
proof that the employer's explanation is false.

Reynaga, 847 F.3d at 694 (internal citations omitted).

"To establish pretext, 'very little' direct evidence of
discriminatory motive is sufficient, but if
circumstantial evidence is offered, such evidence has to
be 'specific' and 'substantial.'" Winarto v. Toshiba Am.
Elecs. Components, Inc., 274 F.3d 1276, 1284 (9th Cir.
2001) (citing Godwin v. Hunt Wesson Inc., 150 F.3d
1217, 1220 (9th Cir. 1998)).
Here, such evidence has not been presented.
Plaintiff argues that the fact that the University did
not fire other tenured professors who had sexual
harassment complaints filed against them
demonstrates that the University deviated from

69a
normal practice by treating plaintiff differently than
other similarly situated professors. However, as
discussed above, the evidence does not show that the
University treated any professors outside of the
plaintiff's protected class better in response to
comparably serious allegations.
There is further no evidence to link the manner in
which plaintiff was treated by the University to racial
or gender bias. Plaintiff's statements that he is an
openly American Indian man are helpful to establish
the first element of the prima facie case, that plaintiff
is a known or perceived member of a protected class;
but "other circumstances" must be shown to
demonstrate the final element, an inference of
discrimination. McDonnell Douglas, 411 U.S. at 802
(1973). At the pretext stage of summary judgment,
those other circumstances must be specific and
substantial in order to rebut the University's
legitimate reason for firing plaintiff. Winarto, 274 F.3d
at 1284. Here, neither direct evidence nor specific and
substantial circumstantial evidence of pretext has been
submitted.
In sum, plaintiff has not carried his burden to make
out a prima facie case for discrimination or retaliation.
Moreover, even if plaintiff had made out a prima facie
case, his evidence falls short of the stringent burden to
create a question of material fact regarding whether
defendants' reason for firing him was false. [FN 8]
IV. Attorney's Fees
Defendants move for an award of reasonable

70a
attorney's fees pursuant to 42 U.S.C. § 2000e-5(k) and
42 U.S.C. § 1988. Award of attorney's fees is at the
Court's discretion. See 42 U.S.C. § 1988 ("In any action
or proceeding to enforce a provision of sections 1981 .
. . [or] 1983 . . . the court, in its discretion, may allow
the prevailing party . . . a reasonable attorney's fee . .
. ."); id. § 2000e-5 (same).
"[C]ourts are permitted to award attorney's fees to
prevailing plaintiffs as a matter of course, but are
permitted to award attorney's fees to prevailing
defendants under 42 U.S.C. §§ 1988 and 2000e-5(k) . .
. only in exceptional circumstances." Harris v.
Maricopa Cty. Super. Ct., 631 F.3d 963, 971 (9th Cir.
2011) (citation and internal quotation marks omitted).
"In a civil rights case, fees may be awarded against an
unsuccessful plaintiff only if his action is 'meritless in
the sense that it is groundless or without foundation.'"
Mitchell v. L.A. Crnty. Coll. Dist., 861 F.2d 198, 202
(9th Cir. 1988) (citing Hughes v. Rowe, 449 U.S. 5, 14,
(1980)) and Dooley v. Reiss, 736 F.2d 1392, 1396 (9th
Cir, 1984)).
Here, the claims that plaintiff brought were not
"groundless or without foundation" merely because
they were not successful. See Mitchell v. Office of L.A.
Cty., 805 F.2d 844, 847 (9th Cir. 1986). Plaintiff
extensively briefed facts, circumstances, and law
supporting his claims, provided evidence, and indicated
that he anticipated discovering further evidence. For
these reasons, defendants' motion for attorney's fees is
denied.

71a
CONCLUSION
Defendants' second motion for summary judgment
(doc. 79) is GRANTED as to all of plaintiff's claims.
Defendants' motion for attorney's fees is DENIED.
IT IS SO ORDERED.
Dated this 13th day of March, 2018.
/s/_________
Ann Aiken
United States District Judge
-------Footnotes:
1. Plaintiff initially named several additional
University employees as defendants, but he stipulated
to their dismissal in June 2017.
2. Defendants challenge this assertion on the basis
that plaintiff does not support the statement in his
declaration with personal knowledge, rendering his lay
witness testimony inadmissible under Federal Rules of
Evidence 602 and 701. See Orr v. Bank of Am., NT &
SA, 285 F,3d 764, 773 (9th Cir. 2002) ("A trial court
can only consider admissible evidence in ruling on a
motion for summary judgment."). Similarly, Federal
Rule of Civil Procedure 56(c)(4) requires that affidavits
be based on personal knowledge to carry weight on a
motion for summary judgment. The testimony at issue
speaks directly to plaintiff's awareness of the

72a
University's intent to fire him. See Fed. R. Evid. 701
(permitting lay witnesses to testify if the testimony is
"rationally based on the witness's perception"). His
statement therefore may be considered as part of the
summary judgment record.
3. The Union's decision not to proceed to arbitration
was a critical consideration to my decision to grant the
University summary judgment on plaintiff's due
process claims. Although I found that Merskin's
declaration raised a triable issue of fact as to actual
bias in the pre-termination decisionmaking process, I
concluded that the individual defendants were entitled
to qualified immunity because "case law does not
clearly establish that a pre-termination process
requires unbiased arbiters when plaintiff has access to
a robust pre-termination arbitration under his
collective bargaining agreement." Pavel v. Univ. of Or.,
2017 WL 1827706, *11 (D, Or. May 3, 2017).
4. Defendants also move for summary judgment on
plaintiff's gender discrimination claim, which he
asserts again the University under Title VII of the
Civil Rights Act. There is no evidence in the record of
any similarly situated woman being treated more
favorably than plaintiff, nor is there evidence that any
decisionmaker took gender into account when
considering whether to terminate plaintiff. Plaintiff
also submits no argument on this point. Plaintiff's
gender discrimination claim fails because there is no
evidence, circumstantial or otherwise, to give rise to an
inference of gender discrimination.
5. When plaintiff is included in the group, four of

73a
the six arguably similarly situated professors were
nonwhite. The fact that two thirds of a certain type of
complaint are filed against professors who are racial
minorities could be evidence that students and
co-workers report sexual harassment by nonwhite
professors at rates disproportionate to their
representation in the faculty – which could, in turn,
affect how a governmental actor should respond to
such complaints. However, a sample size of six is
simply too small to support any conclusions about
complaint trends. I must instead look at the
circumstances of each complaint filed in order to
determine whether any similarly situated professor
was treated more favorably than plaintiff.
6. I have assigned the professors pseudonymous
numbers.
7. Plaintiff concedes that he has "no information or
evidence showing that Dr. Blandy's decision to
terminate [him] was driven by [his] race" or gender.
Pavel Dep. Vol. 3, 72:1-10. (doc. 80 at 25).
8. Plaintiff concedes that the "[U]niversity's
determination that [he] had sexually harassed a
freshman female undergraduate student play[ed a] role
in its decision" to fire him. Pavel Dep. Vol. 3, 72:6-10
(doc. 80 at 21).
--------

74a
APPENDIX D
UNITED STATES DISTRICT COURT
DISTRICT OF OREGON
No. 6:16-cv-00819-AA
[Filed March 15, 2018]
CHIXAPKAID DONALD MICHAEL
PAVEL,
Plaintiff,
v.
UNIVERSITY OF OREGON; DOUG
BLANDY; PENELOPE DAUGHERTY;
and RANDY KAMPHAUS,
Defendants.

)
)
)
)
)
)
)
)
)
)
)
)
)

JUDGMENT
Pursuant to the Opinion and Order signed on
3/13/2018 by District Judge Ann Aiken, it is ordered
that this action is hereby DISMISSED.
3/15/2018
Mary L. Moran, Clerk

75a
By /s/ Cathy Kramer
Deputy Clerk

76a
APPENDIX E
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
18-35287
[Decided July 9, 2019]
CHIXAPKAID DONALD MICHAEL
PAVEL,
Plaintiff-Appellant,
v.
UNIVERSITY OF OREGON; DOUG
BLANDY; PENELOPE DAUGHERTY;
RANDY KAMPHAUS,
Defendants-Appellees.

)
)
)
)
)
)
)
)
)
)
)
)
)

ORDER
Before: N.R. SMITH, WATFORD, and R. NELSON,
Circuit Judges. .
The panel judges have voted to deny petitioner’s
petition for rehearing. Judges Watford and R. Nelson
voted to deny the petition for rehearing en banc, and

77a
Judge N.R. Smith recommended denying the petition
for rehearing en banc.
The full court has been advised of the petition for
rehearing en banc and no judge has requested a vote on
whether to rehear the matter en banc. Fed. R. App. P.
35.
Petitioner’s petition for rehearing and petition for
rehearing en banc, filed June 13, 2019, is DENIED.
FILED JUL 9 2019 MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

